CERTIFICATE OF COMPLIANCE
No. 21-234
In the Supreme Court of the United States
KEVIN R. GEORGE,
Petitioner,
v.
DENIS R. MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent.

As required by Supreme Court Rule 33.1(h), I, Jeremy Cooper Doerre, Counsel
of Record for Amicus Curiae Jeremy C. Doerre, and a member of the Bar of this Court,
do hereby certify that the Brief of Jeremy C. Doerre as Amicus Curiae in Support of
Petitioner contains 1,596 words, excluding the parts of the document exempted by
Supreme Court Rule 33.1(d), and complies with the word limitations set out in Rule
33.1(g).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 15, 2021
Jeremy Cooper Doerre
Tillman Wright, PLLC
3440 Toringdon Way, Ste. 310
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

